TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Improvements Are Needed in the
                     Administration of Education Credits and
                          Reporting Requirements for
                            Educational Institutions



                                    September 30, 2009

                              Reference Number: 2009-30-141




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(a) = Law Enforcement Criteria




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 30, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Improvements Are Needed in the Administration
                              of Education Credits and Reporting Requirements for Educational
                              Institutions (Audit #200830015)

 This report presents the results of our review to determine whether taxpayers are properly
 claiming education credits and whether Internal Revenue Service (IRS) controls are properly
 identifying those taxpayers who are not. This audit was included in our Fiscal Year 2008 Annual
 Audit Plan under the major management challenge of Processing Returns and Implementing Tax
 Law Changes.

 Impact on the Taxpayer
 Tax credits are available to help taxpayers offset the costs of higher education. These credits are
 available to certain taxpayers who pay qualified education expenses for higher education for
 themselves, their spouses, or dependents. The Hope Credit is limited to eligible students
 enrolled in their first 2 years of post-secondary education and can only be claimed for 2 tax
 years. 1 The Lifetime Learning Credit is also available for the first 2 years of post-secondary
 education as well as an unlimited number of years in the future. Some taxpayers are claiming the
 Hope Credit for more years than are allowed by law. In addition, educational institutions are
 spending millions of dollars and staff hours each year to provide taxpayers and the IRS with
 copies of Tuition Statements (Form 1098-T). However, the IRS does not use this Form in its
 compliance programs, or accept the Form as documentation to support claims for education
 credits.


 1
  The American Recovery and Reinvestment Act of 2009 (Pub. L. No. 111-5, 123 Stat. 115) modifies the existing
 Hope Credit for Tax Years (TY) 2009 and 2010, making the credit partially refundable and making it available to a
 broader range of taxpayers for up to 4 years.
                    Improvements Are Needed in the Administration of Education
                             Credits and Reporting Requirements for
                                     Educational Institutions



Synopsis
We identified approximately 203,000 taxpayers who claimed the Hope Credit for the same
student for the 3 consecutive years ending in Tax Year (TY) 2006 (TYs 2004, 2005, and 2006).
The amounts of the credits inappropriately claimed in TY 2006 averaged close to $1,500 and
totaled just over $300 million. Over 58,000 of these taxpayers claimed the credit for the same
student for 4 consecutive tax years (TYs 2004 through 2007). The amounts of the credits
inappropriately claimed for a fourth year totaled almost $80 million.
In a separate computer run, we identified over 169,000 taxpayers who claimed the Hope Credit
for the same student for the 3 consecutive tax years ending in TY 2007 (TYs 2005, 2006, and
2007). 2 The amounts of the credits inappropriately claimed averaged close to $1,400 and totaled
just over $232 million.
We determined that taxpayers were allowed to take these erroneous credits for two reasons.
First, the IRS does not have math error authority to immediately disallow claims for the Hope
Credit for the same student for more than 2 years. Second, the IRS Examination function
scrutinizes these cases after refunds are issued, and the criteria the function applies only
identifies a small fraction of the erroneous cases.
Internal Revenue Code Section 6050S requires educational institutions to issue Forms 1098-T to
taxpayers and to the IRS to assist both in determining the amount of qualified tuition and related
expenses for which an education tax credit is allowable. This law allows educational institutions
to report either an amount for Box 1, Payments Received for Qualified Tuition and Related
Expenses, or for Box 2, Amounts Billed for Qualified Tuition and Related Expenses on the
Form.
We performed a computer analysis of all Forms 1098-T filed for TYs 2005, 2006, and 2007 and
found that Box 1, the actual amount paid, was blank on close to 80 percent of the Forms. The
only amount relevant for cash basis taxpayers, and the only amount beneficial to both the
taxpayer and the IRS for computing the amount of credit allowed, is the amount paid by the
taxpayer for qualified tuition and related expenses.
We were informed that the IRS does not use Form 1098-T in its Automated Underreporter
(AUR) matching program 3 and does not accept Form 1098-T as proof of educational expenses


2
  Some of the taxpayers inappropriately claiming the credit for a third year were IRS employees. We referred this
information to the Treasury Inspector General for Tax Administration Office of Investigations for further action.
3
  The AUR Program matches information reported on individual tax returns against information reported by banks,
employers, and other payers. When the AUR matching process identifies a discrepancy, an AUR case is established
and an Underreporter Notice (CP 2000) is issued to the taxpayer. The CP 2000 notice may contain proposed
changes to income, payments, credits, and/or deductions. Depending on the taxpayer’s response to the notice, the
AUR caseworker will make necessary tax adjustments to the taxpayer’s account.
                                                                                                                2
                  Improvements Are Needed in the Administration of Education
                           Credits and Reporting Requirements for
                                   Educational Institutions


when a taxpayer’s return is audited. As a result, educational institutions are needlessly
expending approximately 5.1 million hours each year to complete Forms 1098-T and an
estimated $3.8 million to mail the Forms to students.

Legislative Recommendations
   •   Provide the IRS with math error authority to disallow claims for the Hope Credit that are
       taken for more years than allowed by law.
   •   Enact legislation to either make Form 1098-T useable to the IRS and taxpayers by
       requiring educational institutions to report amounts paid rather than allowing them to
       choose between amounts paid and amounts billed, or relieve educational institutions of
       the burden of producing this Form.

Recommendation
If legislation is enacted to require educational institutions to report amounts paid rather than
amounts billed on Form 1098-T, the Commissioner, Wage and Investment Division, should
ensure that Education Credits (Hope and Lifetime Learning Credits) (Form 8863) contains
specific line items to make it matchable to the information reported on Form 1098-T.

Response
IRS management agreed with all three of our recommendations. The IRS was pleased that we
are requesting Congressional consideration for two legislative recommendations that they believe
will make their administration of these credits more productive. Pending the enactment of the
legislation, the IRS agreed to make the necessary changes to the Form 1098-T and Form 8863 to
comply with the legislation and will take the action necessary to ensure the changes made are
useful to taxpayers and for tax administration purposes. Management’s complete response to the
draft report is included in Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                   3
                       Improvements Are Needed in the Administration of Education
                                Credits and Reporting Requirements for
                                        Educational Institutions




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Taxpayers Received the Hope Credit for the Same Student for
          More Than 2 Years ......................................................................................Page 3
                    Recommendation 1:..........................................................Page 5

          As Currently Administered, the Tuition Statement (Form 1098-T)
          Is Not Meeting Its Intended Purpose and Is an Unnecessary Burden
          to Educational Institutions ............................................................................Page 5
                    Recommendations 2 and 3: ................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 14
      Improvements Are Needed in the Administration of Education
               Credits and Reporting Requirements for
                       Educational Institutions




                    Abbreviations

AUR           Automated Underreporter
FY            Fiscal Year
IRS           Internal Revenue Service
TY            Tax Year
                   Improvements Are Needed in the Administration of Education
                            Credits and Reporting Requirements for
                                    Educational Institutions




                                          Background

Tax credits are available to help taxpayers offset the costs of higher education. These credits are
available to taxpayers who pay qualified education expenses for higher education for themselves,
their spouse, or a dependent that is claimed as an exemption on their tax return so long as they
are eligible students.
    •   Hope Credit – For each eligible student in Tax Year (TY) 2007, this credit was equal to
        100 percent of the first $1,100 of qualified education expenses and 50 percent of the next
        $1,100 of qualified expenses, for a maximum credit of $1,650 per eligible student. This
        credit is limited to eligible students enrolled in their first 2 years of post-secondary
        education attending at least half time.
        The American Recovery and Reinvestment Act of 2009 1 modifies the existing Hope
        Credit for TYs 2009 and 2010, making the credit partially refundable and making it
        available to a broader range of taxpayers. The modifications are entitled the American
        Opportunity Tax Credit. For these years, the credit is increased to the sum of 100 percent
        of the first $2,000 of qualified tuition and related expenses and 25 percent of the next
        $2,000, for a total maximum credit of $2,500 per eligible student. The credit is also
        expanded to apply to the first 4 years of post-secondary education.
    •   Lifetime Learning Credit – In TY 2007, this credit was equal to 20 percent of the first
        $10,000 of qualified education expenses, for a maximum credit of $2,000 per eligible
        taxpayer. This credit is available every year for an unlimited number of years.
The credits for TYs 2007 and 2008 are nonrefundable, meaning the credits can reduce the
amount of income tax individuals pay but cannot exceed the amount of tax owed. 2 The amount
of either education credit is phased out if the taxpayer’s modified Adjusted Gross Income is
between $47,000 and $57,000 ($94,000 and $114,000 if the taxpayer files a joint tax return).
A Tuition Statement (Form 1098-T) is provided to students by institutions of higher education
which reports payments received for qualified tuition and related expenses, amounts billed for
qualified tuition and related expenses, scholarships and grants given, and adjustments made for a
prior year. The taxpayer in turn reports qualified education expenses on Education Credits
(Hope and Lifetime Learning Credits) (Form 8863) and claims the credit on the appropriate line
of the U.S. Individual Income Tax Return (Form 1040).


1
  Pub. L. No. 111-5, 123 Stat. 115.
2
  The modifications made for TYs 2009 and 2010 provided for 40 percent of the American Opportunity Tax Credit
to be refundable.
                                                                                                       Page 1
                    Improvements Are Needed in the Administration of Education
                             Credits and Reporting Requirements for
                                     Educational Institutions



This review was performed at the Internal Revenue Service (IRS) Campus 3 in Ogden, Utah,
during the period February 2008 through March 2009 and included a review of tax information
from returns filed and processed nationwide, as well as an evaluation of information provided by
the IRS Discretionary Examination and Automated Underreporter Programs. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                    Improvements Are Needed in the Administration of Education
                             Credits and Reporting Requirements for
                                     Educational Institutions




                                      Results of Review

Some Taxpayers Received the Hope Credit for the Same Student for
More Than 2 Years
The Hope Credit can be claimed for eligible students enrolled in their first 2 years of
post-secondary education and cannot be claimed for the same student for more than 2 tax years.
This credit does not apply to the third, fourth, or higher years of undergraduate or graduate
programs.
We identified approximately 203,000 taxpayers who claimed the Hope Credit for the same
student for the 3 consecutive tax years ending in TY 2006 (TYs 2004, 2005, and 2006). 4 The
amounts of the credits inappropriately claimed in TY 2006 averaged close to $1,500 and totaled
just over $300 million. Over 58,000 of these taxpayers claimed the credit for the same student
for 4 consecutive tax years (TYs 2004 through 2007). The amounts of the credits inappropriately
claimed for a fourth year totaled almost $80 million.
In a separate computer run, we identified over 169,346 taxpayers who claimed the Hope Credit
for the same student for the 3 consecutive tax years ending in TY 2007 (TYs 2005, 2006, and
2007). 5 The amounts of the credits inappropriately claimed for a third year in TY 2007 averaged
close to $1,400 and totaled over $232 million.
Since the Hope Credit is not a refundable credit, the amount of the credit realized is limited to
the amount of tax owed (after applying most other credits). We conducted further analysis of the
accounts of the taxpayers that claimed the credit in TY 2007 for a third year and determined that
168,347 taxpayers inappropriately received credits totaling over $206 million.
We determined that taxpayers were allowed to take these erroneous credits for two reasons.
First, the IRS does not have math error authority to immediately disallow claims for the Hope
Credit for the same student for more than 2 years. Second, the IRS Examination function
scrutinizes these cases after refunds are issued, and the criteria the function applies only
identifies a small fraction of the erroneous cases.




4
  The totals and amounts reported in this section of the report are based on taxpayers claiming only one student.
Taxpayers claiming multiple students were excluded in order to simplify the computer programming necessary to
make the calculation. Therefore, additional erroneous claims likely exist.
5
  Some of the taxpayers inappropriately claiming the credit for a third year were IRS employees. We referred this
information to the Treasury Inspector General for Tax Administration Office of Investigations for further action.
                                                                                                           Page 3
                 Improvements Are Needed in the Administration of Education
                          Credits and Reporting Requirements for
                                  Educational Institutions



Legislative Recommendation
Recommendation 1: Provide the IRS with math error authority to disallow claims for the
Hope Credit that are taken for more years than allowed by law.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that if this legislation is enacted, the Commissioner, Wage and Investment
       Division, will review the legislation and then determine whether it is both feasible and
       cost effective to use math error authority during processing.

As Currently Administered, the Tuition Statement (Form 1098-T) Is Not
Meeting Its Intended Purpose and Is an Unnecessary Burden to
Educational Institutions
Internal Revenue Code Section 6050S requires educational institutions to issue Forms 1098-T to
taxpayers and the IRS to assist both in determining the amount of qualified tuition and related
expenses for which an education tax credit is allowable. Instructions for the Form 1098-T allow
educational institutions to report either an amount for Box 1, Payments Received for Qualified
Tuition and Related Expenses, or for Box 2, Amounts Billed for Qualified Tuition and Related
Expenses.
We performed a computer analysis of all Forms 1098-T filed for TYs 2005, 2006, and 2007 and
found that Box 1, the actual amount paid, was blank on close to 80 percent of the Forms. This
makes the Form useless for the purpose of tax administration because the only amount relevant
for cash basis taxpayers, and the only amount beneficial to both the taxpayer and the IRS for
computing the amount of credit allowed, is the amount actually paid by the taxpayer for qualified
tuition and related expenses.

The amount of education credits claimed often does not correlate to the amount
of Qualified Tuition and Related Expenses reported on Form 1098-T
We reviewed a judgmental sample of 36 taxpayer accounts which had claimed either the Hope
Credit or the Lifetime Learning Credit to determine if there appeared to be any correlation
between the Qualified Tuition and Related Expense amounts reported on Forms 1098-T and the
amounts claimed by the taxpayers as qualified expenses on Forms 8863. We were able to match
figures with 14 (74 percent) of the 19 cases in which taxpayers claimed the Lifetime Learning
Credit and only 11 (65 percent) of the 17 cases in which taxpayers claimed the Hope Credit.
For the period of our review, the law defined qualified education expenses as tuition and certain
related expenses required for enrollment or attendance at an eligible educational institution.
Student activity fees and expenses for course-related books, supplies, and equipment are
included in qualified education expenses only if the fees and expenses must be paid to the


                                                                                           Page 5
                   Improvements Are Needed in the Administration of Education
                            Credits and Reporting Requirements for
                                    Educational Institutions



educational institution as a condition of enrollment or attendance. 6 These related expenses may
not have been included on the Forms 1098-T provided to the IRS and the taxpayer.
With the passage of the American Recovery and Reinvestment Act in 2009, all ‘course
materials’ will be allowed as a qualified related expense regardless of whether or not they were
paid to the educational institution. This change will significantly increase the probability that
amounts on Form 1098-T will not correspond to amounts claimed on Form 8863 because course
materials are not accounted for by educational institutions.

The IRS requires educational institutions to complete and mail Form 1098-T but it
does not use the Form or accept it as supporting documentation
We were informed that the IRS does not use Form 1098-T in its Automated Underreporter
(AUR) matching program and does not accept Form 1098-T as proof of education expenses paid
when a taxpayer’s return is audited.
The IRS’ AUR Program matches information reported on individual tax returns against
information reported by banks, employers, and other payers. When the AUR matching process
identifies a discrepancy, an AUR case is established and an Underreporter Notice (CP 2000) is
issued to the taxpayer. The CP 2000 notice may contain proposed changes to income, payments,
credits, and/or deductions. Depending on the taxpayer’s response to the CP 2000 notice, the
AUR caseworker will make necessary tax adjustments to the taxpayer’s account.
The form used by taxpayers to claim the Hope and Lifetime Learning Credits (Form 8863)
requests only one entry for qualified expenses rather than distinguishing between tuition and
related expenses. Because related expenses might not be reflected on Form 1098-T, and because
the educational institutions can report either the amounts billed or the amounts paid to the
institution, the information on Form 1098-T and Form 8863 is not matchable. We were also
informed by the IRS Examination function that Form 1098-T was not acceptable documentation
to support education expenses paid.
The IRS estimates that it takes 13 minutes to complete Form 1098-T and costs approximately
16 cents per Form to mail at the bulk rate. Educational institutions are filing approximately
24 million Forms 1098-T per year. Based on these estimates, educational institutions expend
approximately 5.1 million hours each year to complete Forms 1098-T and $3.8 million to mail
the Forms to students.




6
 The American Recovery and Reinvestment Act of 2009 significantly expands the additional expenses that can be
added to tuition to determine the amount of the credit.
                                                                                                       Page 6
                 Improvements Are Needed in the Administration of Education
                          Credits and Reporting Requirements for
                                  Educational Institutions



Legislative Recommendation
Recommendation 2: Enact legislation to either make Form 1098-T useable to the IRS and
taxpayers by requiring educational institutions to report amounts paid rather than allowing them
to choose between amounts paid and amounts billed, or relieve educational institutions of the
burden of producing this Form.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that if legislation is enacted that either requires changes to the Form 1098-T, or
       relieves educational institutions from the burden of producing the Form 1098-T, the
       Commissioner, Wage and Investment Division, will make the necessary changes.

Recommendation
Recommendation 3: If legislation is enacted to require educational institutions to report
amounts paid rather than amounts billed on Form 1098-T, the Commissioner, Wage and
Investment Division, should ensure that Form 8863 contains specific line items to make it
matchable to the information reported on Form 1098-T.
       Management’s Response: The IRS agreed with this recommendation. The
       Commissioner, Wage and Investment Division, will make the required changes to
       Form 1098-T and Form 8863 if new legislation is enacted and also agreed to take the
       action necessary to ensure the changes made are useful to taxpayers and for tax
       administration purposes.




                                                                                             Page 7
                 Improvements Are Needed in the Administration of Education
                          Credits and Reporting Requirements for
                                  Educational Institutions



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers are properly claiming
education credits and whether IRS controls are properly identifying those taxpayers who are not.
To accomplish our objective, we:
I.     Determined the purpose of the education credits, which taxpayers are eligible to claim the
       credits, the dollar limits associated with the credits, and whether adequate instructions are
       available to taxpayers to properly claim the credits.
       A. Reviewed the instructions provided to taxpayers in Tax Benefits for Education
          (Publication 970) and Your Federal Income Tax For Individuals (Publication 17) or
          other applicable instructions dealing with education credits.
       B. Reviewed the applicable Internal Revenue Code sections associated with the
          education credits.
       C. Determined whether IRS instructions seem to be relatively clear, understandable, and
          available to taxpayers.
II.    Determined what controls exist to ensure taxpayers are properly claiming the education
       credits.
       A. Determined whether compliance programs existed to review returns claiming the
          education credits to ensure:
           1. The student is enrolled at least half time.
           2. The Hope Credit has not already been claimed in the 2 previous years.
           3. The person claiming the credits meets the Adjusted Gross Income criteria.
           4. The credits are claimed by the entitled person.
       B. Analyzed the programs discussed in Step II.A. to determine if they were effective in
          identifying questionable claims for the Hope Credit.
       C. Determined the criteria used to select the returns for audit, the criteria used to audit
          the returns, the number of returns audited, the change/no change rates, and the dollar
          assessments made per year.
       D. Evaluated the Tuition Statement (Form 1098-T) to determine its purpose, how it is
          used, and its effectiveness. We determined how much time and money it costs
          educational institutions to prepare and mail Forms 1098-T.
                                                                                             Page 8
                     Improvements Are Needed in the Administration of Education
                              Credits and Reporting Requirements for
                                      Educational Institutions



III.     Determined whether taxpayers properly claimed the education credits.
         A. Selected a statistically valid sample 1 of 100 taxpayer accounts (TY 2007) claiming an
            education credit on Form 8863 and reviewed each account to determine whether:
             1. Form 1098-T was filed with the return.
             2. Box 8 was checked indicating that the taxpayer is at least a half-time student.
             3. The Hope Credit was claimed for more than 2 years.
             4. The taxpayer was also claiming the tuition and fees deduction.
             5. The Adjusted Gross Income criteria was met.
             6. The education credit was claimed on the tax return of the person claiming the
                exemption for the student.
             7. The credit amount claimed was within the credit limit allowed.
         B. Reviewed a judgmental sample of 36 2 taxpayer accounts (TY 2007) claiming an
            education credit on Form 8863 to determine if there was a correlation between the
            amount of the education credit claimed on the Form 8863 and the amounts reported
            on the related Form 1098-T.
         C. Requested from the Treasury Inspector General for Tax Administration Electronic
            Data Processing group an Individual Master File 3 extract of the number of Forms
            1098-T filed with the IRS for TYs 2005, 2006, and 2007 and whether there was an
            amount in Box 1 (Payments Received for Qualified Tuition and Related Expenses).
         D. Matched files of taxpayers claiming the Hope Credit for a third year in TY 2006 or
            TY 2007 to current IRS employee files to determine if any IRS employees had
            claimed the Hope Credit for a student for more than 2 years.
         E. Performed queries using the Data Center Warehouse 4 to identify all taxpayers
            claiming the Hope Credit for the same student for more than 2 years with the
            additional years being either TY 2006 or TY 2007.


1
  The sample was based on a confidence level of 95 percent, a precision rate of ± 8 percent, and an expected error
rate of 20 percent, resulting in a sample size of 97. We selected statistical samples because we wanted to project our
results over the entire population.
2
  A judgmental sample was selected because we did not intend to project the results over the population. Our intent
was only to determine to what degree the amounts correlated.
3
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
4
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the Treasury Inspector General for Tax Administration for the purpose of
analyzing data for ongoing audits.
                                                                                                              Page 9
                Improvements Are Needed in the Administration of Education
                         Credits and Reporting Requirements for
                                 Educational Institutions



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Bill R. Russell, Audit Manager
Kyle Bambrough, Senior Auditor
Douglas C. Barneck, Senior Auditor




                                                                                    Page 10
                Improvements Are Needed in the Administration of Education
                         Credits and Reporting Requirements for
                                 Educational Institutions



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Secretary of the Treasury for Tax Policy
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Accounts Management SE:W:CAS:AM
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 11
                       Improvements Are Needed in the Administration of Education
                                Credits and Reporting Requirements for
                                        Educational Institutions



                                                                                                    Appendix IV

                                        Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Revenue Protection – Potential; $398,208,090 in ineligible claims for the Hope Credit by an
       estimated 505,041 taxpayers over a 3-year period (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained all Individual Master File 1 accounts which claimed the Hope Credit during
TYs 2005, 2006, and 2007. We identified 169,346 taxpayer accounts that claimed the credit for
the same student in all 3 years. These taxpayers erroneously claimed $232,771,098 of the credit
in the third year. We further analyzed these accounts to determine the actual number of
taxpayers that received the credit and the actual amounts received (some taxpayers that claimed
the credit were not allowed the credit). We identified 168,347 taxpayers that had actually
received $206,808,710 in erroneous Hope Credits for the third year in TY 2007.
Providing that these taxpayers would each be eligible for $440 in Lifetime Learning Credits, we
reduced this figure by $74,072,680 (168,347 x $440). The projected revenue protected would be
$132,736,030 per year. We are projecting this figure over 3 years (TYs 2011, 2012, and 2013)
rather than 5 years to account for the 2-year period during which the American Opportunity Tax
Credit replaces the Hope Credit. Therefore, the total revenue protected is $398,208,090
($132,736,030 x 3 years).

Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Potential; $254,631 over 3 years which could be applied to
       other Examination function programs (see page 3).

Methodology Used to Measure the Reported Benefit:
During FY 2008, the IRS Examination function reviewed and closed 2,175 cases where
taxpayers were inappropriately claiming the Hope Credit for the same student for more than
2 years. The IRS Examination function used 4,246 staff hours examining those cases. The IRS

1
    The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                               Page 12
                 Improvements Are Needed in the Administration of Education
                          Credits and Reporting Requirements for
                                  Educational Institutions



estimates the average direct costs to work these cases was about $19.99 per hour. If the IRS
received math error authority to disallow claims for the Hope Credit, $84,877 could be used for
other Examination function programs (4,246 x $19.99). We are projecting this figure over
3 years (TYs 2011, 2012, and 2013) rather than 5 years to account for the 2-year period during
which the American Opportunity Tax Credit replaces the Hope Credit. Therefore, the value of
the resources made available is $254,631 ($84,877 x 3 years).

Type and Value of Outcome Measure:
•   Reduction of Burden on Taxpayers – Potential; $19 million over 5 years in postage costs (see
    page 5).

Methodology Used to Measure the Reported Benefit:
The IRS requires educational institutions to provide students with a Tuition Statement
(Form 1098-T) at the end of each tax year. We requested and obtained an Individual Master File
extract for TYs 2005 through 2007 and determined that educational institutions mail
approximately 23.8 million Forms 1098-T every year. According to the United States Postal
Service, the bulk rate for mailing such forms is approximately $0.16 per form. We therefore
conclude that educational institutions spend approximately $3.8 million (23.8 million x $0.16)
each year to mail these forms, or $19 million over 5 years (5 years x $3.8 million).

Type and Value of Outcome Measure:
•   Reduction of Burden on Taxpayers – Potential; 25.5 million hours over 5 years are spent by
    educational institutions preparing Forms 1098-T (see page 5).

Methodology Used to Measure the Reported Benefit:
Approximately 23.8 million Forms 1098-T were filed each year by educational institutions
during TYs 2005 through 2007. The IRS determined that it takes 13 minutes to complete
Form 1098-T. We therefore estimate that educational institutions are expending over 5.1 million
hours each year to complete Forms 1098-T [(23.8 million x 13 minutes)/60 minutes]. This
projects to 25.5 million hours over a 5-year period (5 years x 5.1 million hours).




                                                                                         Page 13
  Improvements Are Needed in the Administration of Education
           Credits and Reporting Requirements for
                   Educational Institutions



                                                  Appendix V

Management’s Response to Draft Report




                                                        Page 14
Improvements Are Needed in the Administration of Education
         Credits and Reporting Requirements for
                 Educational Institutions




                                                      Page 15
Improvements Are Needed in the Administration of Education
         Credits and Reporting Requirements for
                 Educational Institutions




                                                      Page 16
